No. 19AIn the Supreme Court of the United States
Gail Rosier, PETITIONER
v.
Jeffrey Strobel, RESPONDENT

PROOF OF SERVICE
I, Gail Rosier, do swear or declare that on this date, August 26, 2019, as required by Supreme Court
Rule 29, I have served the enclosed APPLICATION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO THE SUPREME COURT OF ARIZONA on each
party to the above proceeding or that party's counsel, and on every other person required to be served,
by depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
William A. Richards
Baskin Richards, PLC
2901 N. Central Avenue, Suite 1150
Phoenix, Arizona 85012
dwood@baskinrichards.com
Attorney for Respondent Jeffrey Strobel
Carol A. Salvati
Assistant Attorney General
1275 W. Washington
Phoenix, Arizona 85007-2997
Carol.Salvati@azag.gov
Attorney for the State of Arizona

I declare under penalty of perjury that the foregoing is true and correct.
Executed on August 16, 2019

